Supreme Court, U.S.
FILED

MAY 1 3 2021
OFFICE OF THE CLERK

No.

3fa tfje Supreme Court of tfje ©ntteii States?
STATE OF TENNESSEE, ex parte PETITIONER

John A. Gentry, petitioner
V.

Speaker of the House Cameron
Sexton; Speaker of the Senate lt.
Gov. Randy McNally; et ai,
ON PETITION FOR A WRIT OF CERTIORARI
TO SUPREME COURT OF TENNESSEE
AT NASHVILLE

PETITION FOR A WRIT OF CERTIORARI
John A. Gentry
208 Navajo Court
Goodlettsville, TN 37072
(615) 351-2649
john.a.gentry@comcast.net
suijuris /Pro Se

received

MAY 1 8 2021
fupr#mefnoMPT-no*

QUESTIONS PRESENTED
This Court has not in its entire history been
presented a more important case, seeking to restore
the cornerstone right of petition oppressed in
attempted exercise against a wrongful government.
The facts of this case are not disputed and clearly
evidence a government that is no longer republican
in character or form - a government that has
a
unlawfully altered its state constitution,
government statutorily assigning judges to
prohibited second offices of trust, with those
unlawful offices used to protect rampant corruption
in the state judiciary - a government that openly
oppresses the First Amendment and Tennessee
Constitution right to petition for redress of grievance
by address or remonstrance - a government that
denies due process through rules repugnant to state
and federal constitutions.
The questions presented are1. Whether the state government has a duty to
present a correct version of the Tennessee
Constitution to the public, and not deceive its
citizenry through constructive fraud of an
unlawfully altered state constitution.
2. Whether legislative houses have a duty to hear
and decide a properly filed remonstrance,
protesting unlawful conduct of government.
3. Whether Tennessee Supreme Court Rule 10B,
House Rule of Order 15, and Senate Rule of Order
22 are repugnant to the state constitution, and
violate or oppress rights protected under both
state and federal constitutions.

PARTIES TO THE PROCEEDINGS
The state of Tennessee was the ex parte
Petitioner in trial court, and ex parte Appellant in
the Supreme Court of Tennessee at Nashville.
John A. Gentry was Plaintiff in trial court, and
the Appellant in the Supreme Court of Tennessee At
Nashville.
Respondents, Former Speaker Of The House,
Glen Casada; Speaker Of The Senate, Randy
McNally; Chief Clerk Of The House, Tammy Letzler;
Chief Clerk Of The Senate, Russell A. Humphrey;
and Speaker Of The House Cameron Sexton were
Defendants in Chancery Court, and Appellees in the
Supreme Court Of Tennessee At Nashville.

ii

TABLE OF CONTENTS
TABLE OF AUTHORITIES

IV

OPINIONS BELOW

2

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED.......................

3

STATEMENT

3

REASONS FOR GRANTING THE PETITION..... 6
I.

CONSTRUCTIVE FRAUD OF UNLAWFUL
ALTERATION OF STATE CONSTITUTION;.. 6

II. THE RIGHT TO PETITION FOR REDRESS OF
GRIEVANCES MUST BE RESTORED &
UPHELD......................................................
10
III. RIGHT OF DUE PROCESS OPPRESSED.... 12
IV. GUARANTEE DEMAND

19

V. OPPRESSIVE LEGISLATIVE RULES OF
ORDER; Actus repugnans non potest in esse
produci...........................
20
VI. CONSTITUTIONALLY
REPUGNANT
TENNESSEE SUPREME COURT RULE 10B;
Actus repugnans non potest in esse produci... 21
VII. THIS COURT IS CALLED TO DUTY

24

CONCLUSION...............................................

25

iii

Appendix A - Chancery Court Memorandum and
Order Dismissing Amended Petition For Writ of
Mandamus.................................................................... la
Appendix B - Tennessee Court of Appeals At
Nashville Order Denying Motion For All Appellate
Court Judges To Recuse or Disqualify
35a
Appendix C - Tennessee Court of Appeals At
Nashville Opinion Upholding Chancery Court
Memorandum & Order........................................

49a

Appendix D - Tennessee Court of Appeals of
Tennessee at Nashville Order Denying Petition For
Rehearing
77a
Appendix E - Supreme Court of Tennessee Order
Denying Application for Permission to Appeal... 79a
Appendix F- Petition of Remonstrance Received
and Recorded In The Journals of Tennessee House
& Senate, and Tendered as Exhibit in Both
Chancery and Tenn. Court of Appeals
81a
Appendix G - Tennessee Constitution &
Constitution of the United States (excerpts).... 203a
TABLE OF AUTHORITIES
Cases
Armstrong v. Manzo, 380 US 545, 552, Supreme
Court 1965................................................................

15

Clark v. Martinez, 543 U.S. 371, 380-81, Supreme
Court 2005
21

iv

Cornwell v. Hodge, C.A. No. 44, 1986 WL 5890, at
*3 (Tenn.Ct.App. May 23, 1986)............................. 8
ex parte Young 209 US 123, 28 S. Ct. 441, 52 L. Ed.
714, Supreme Court 1908
24
Goldberg v. Kelly; 397 US 254, Supreme Court 1970
15
Grannis v. Ordean, 234 US 385, 394, Supreme
Court 1914............................................................

15

Grosjean v. American Press Co., 297 US 233, 56,
444, 80 L. Ed. 660, Supreme Court 1936............ 14
Joint Anti-Fascist Comm. v. McGrath, 341 US 123,
168, Supreme Court 1951
14
Mathews v. Eldridge, 424 US 319, Supreme Court
1976............................................................................. 14
Pacific States Telephone & Telegraph Co. v. Oregon,
223 US 118, Supreme Court 1912
12
Parks v. Alexander, 608 S.W.2d 881

(Tenn.Ct.App. 1980)....................

8

United States v. Cruikshank, 92 US 542, Supreme
Court 1876
19
United States v. Jin FueyMoy, 241 U.S. 394, 401,
Supreme Court 1916................................................ 21
United States v. Price, 383 US 787, 86, 1152, 16 L.
Ed. 2d 267, Supreme Court 1966
22
Statutes

v

18U.S.C. §241......

22

28 U.S.C. § 1257(a)

3

Other Authorities
Mason’s Manual of Legislative Procedure. § 148, ^ 4
............................................................................... 15, 20
Mason’s Manual of Legislative Procedure. § 518, f 1
15
Norman B. Smith, “Shall Make No Law Abridging .
.
An Analysis of the Neglected, But Nearly
Absolute, Right of Petition, 54 U. CIN. L. REV.. 10
Tennessee House of Representatives, House Journal
1831, p 276
16
Tennessee House of Representatives, House Journal
1831, p 282
17
Rules
House Rules of Order, Rule 15

i, 5, 20

House Rules of Order, Rule 79

20

Senate Rules of Order, Rule 22

i, 6, 20

Senate Rules of Order, Rule 71

20

Supreme Court of the United States, Rulel4(g)(i).. 5
Tenn. Sup. Ct. R. 10B

i,6

Tenn. Sup. Ct. Rule 10B 1.03
Constitutional Provisions

VI

22

Tennessee Constitution, art. I, § 23

4, 5, 21

Tennessee Constitution, art. V, § 1

19

Tennessee Constitution, art. VI, §6

19

U.S. Const, amend. XIV

16, 18

U.S. Const, art VI

18, 25
3, 20

U.S. Const, art. IV, § 4

vii

3to tf)e Supreme Court of tfie ©mteb Stated
No.
STATE OF TENNESSEE, ex parte PETITIONER
JOHN A. GENTRY, PETITIONER
v.
FORMER SPEAKER OF THE HOUSE, GLEN
CASADA; SPEAKER OF THE SENATE, RANDY
MCNALLY; CHIEF CLERK OF THE HOUSE,
TAMMY LETZLER; CHIEF CLERK OF THE
SENATE, RUSSELL A. HUMPHREY; AND
SPEAKER OF THE HOUSE CAMERON SEXTON,
RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI
TO SUPREME COURT OF TENNESSEE AT
NASHVILLE
PETITION FOR A WRIT OF CERTIORARI
In the case John Anthony Gentry v. Former
Speaker Of The House, Glen Casada; Speaker Of
The Senate, Randy McNally; Chief Clerk Of The
House, Tammy Letzler; Chief Clerk Of The Senate,
Russell A. Humphrey; and Speaker Of The House
Cameron Sexton, Petitioner entreats for a writ of
certiorari of Supreme Court Of Tennessee At
Nashville, since this matter is of profound
imperative to restore the cornerstone right of
remonstrance upon which this republic was founded.

1

OPINIONS BELOW
In the case, ex parte state of Tennessee and John
Anthony Gentry v. Former Speaker Of The House,
Glen Casada; Speaker Of The Senate, Randy
McNallyJ Chief Clerk Of The House, Tammy Letzler;
Chief Clerk Of The Senate, Russell A. Humphrey,
and Speaker Of The House Elect Cameron Sexton;
The Chancery Court Memorandum and Order
Dismissing Amended Petition For Writ Of
Mandamus is included in appendix, See Appendix
A.
The ORDER of the Court of Appeals Of
Tennessee At Nashville denying motion to
disqualify is included in appendix, See Appendix
B.
The OPINION of the Court of Appeals Of
Tennessee At Nashville upholding dismissal by
Chancery Court is included in appendix, See
Appendix C.
The Court of Appeals Of Tennessee Order
Denying Petition for Rehearing is included in
Appendix, See Appendix D.
The ORDER of the Supreme Court of
Tennessee At Nashville, denying application for
permission to appeal is included in appendix, See
Appendix E.
JURISDICTION
In the case, ex parte state of Tennessee and John
Anthony Gentry v. Former Speaker Of The House,
Glen Casada; Speaker Of The Senate, Randy
McNally! Chief Clerk Of The House, Tammy Letzler;
Chief Clerk Of The Senate, Russell A. Humphrey;

2

and Speaker Of The House Elect Cameron Sexton;
the order denying application for permission to
appeal by the Tennessee Supreme Court was entered
on January 13, 2021. The jurisdiction of this Court
is invoked under 28 U.S.C. § 1257(a) and
Constitution of the United States, Article IV, § 4.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Pertinent
constitutional
provisions
reproduced in the appendix to this petition.
Appendix G.

are
See

STATEMENT
On January 14, 2019, Petitioner filed a Petition of
Remonstrance1 (see Appendix F) with the Chief
Clerk of the Tennessee Senate, and on January 18,
2019, the same Petition of Remonstrance was filed
with the Chief Clerk of the House of Representatives
by a member of the House. Such a petition had not
been received in either house, since the year 1850
evidencing the cornerstone right of petition is
oppressed.

1 In Case No. 18-170 Gentry v State of Tennessee, docketed with
this Court and reflected on the Court’s website, the Clerk of the
Supreme Court of the United States, excluded fourteen (14) of
seventeen (17) Appendixes from the Court’s website, with those
Appendixes evidencing corruption of the lower federal courts!
for example, an Order issued by a Sixth Circuit “two-judge
panel” in violation of 28 USC § 46(b). For the convenience of the
Court, if the Clerk’s Office decides to exclude Appendix F
Petition of Remonstrance in the online record of this case, that
document
may
be
downloaded
at
https://wethepeoplev50.com/resource-documents

3

In the “Jurisdictional Statement” of Petitioner’s
remonstrance, Petitioner asserted the rights to
petition for redress of grievances, and reform
government pursuant to the Tennessee Constitution,
and the Constitution of the United States (Appendix
F, p. 83a - 87a).
In his remonstrance, Petitioner demanded reform
of Tennessee’s largely corrupted judiciary, and
unlawful alteration of the state’s form of government
as established in the Tennessee Constitution.
Although deceived by an unlawfully altered
Tennessee Constitution, Article I, §232 to not know
he had a right to address government orally,
Petitioner asserted the right to petition “by address”
by stating “ORAL ARGUMENT DEMANDED” on
the cover page as well as a two page section of his
remonstrance. See Appendix F p. 82a and 87a - 90a.
Since
neither
house
read
Petitioner’s
Remonstrance “at the table” as required by
legislative Rules of Order, and did not hear or decide
remonstrance presented to the bodies, Petitioner
petitioned for Writ of Mandamus in Chancery Court
for the State of Tennessee, Twentieth Judicial
District, Davidson County.

2 The Tennessee General Assembly and Secretary of State
websites, and the Tennessee Blue Book published by the
Secretary of State which have typewritten versions of the
Tennessee Constitution, include a “typographical error” where
the last phrase of Article I, § 23 has been unlawfully altered to
read “by address “of’ remonstrance” instead of the correct
reading “by address “or” remonstrance.” The Court of Appeals
of Tennessee has “encouraged” See Appendix C, p74a — 75a the
Defendants/Respondents to make the correction, but as of
writing this petition, this constructive fraud upon the citizenry
persists.

4

Pursuant to Rules of the Supreme Court of the
United States, Rulel4(g)(i);
In seeking a Writ of Mandamus, Petitioner raised
the federal and constitutional questions; whether
government has a duty to hear properly presented
remonstrances either read at the table, or presented
by petitioner, as well as a duty to decide3 whether to
grant or deny redress and reforms sought.
During proceedings in Chancery Court, Petitioner
was made aware that the last phrase of Tennessee
Constitution, Art. I, § 23 had been unlawfully altered
causing Petitioner to amend his Petition seeking
further Writ of Mandamus to correct the type-written
version of the Tennessee Constitution held out to the
people, thus raising the federal and constitutional
question as to whether a government can deceive its
citizenry through a constructive fraud of a falsified
state constitution that strips all Tennessee citizens
of the right to petition by address.
According to the Chancellor, Petitioner’s
amended pleading mooted Defendant/Respondent’s
motion to dismiss and falsified evidence presented as
an exhibit to the motion to dismiss. Without an
operating motion to dismiss before the court, the
Chancellor wrongfully issued an Order of
involuntary dismissal. See Appendix A.
Since the case was involuntarily dismissed
without a hearing, Petitioner filed a Rule 59 Motion
To Alter on the basis to prevent manifest injustice
and in that motion to alter Petitioner raised the
federal and constitutional questions as to whether
Tennessee House Rule of Order 15, and Senate Rule
3 Petitioner DID NOT seek mandamus on “how” the General
Assembly should decide, but only that they hear, and then grant
or deny redress and reforms sought.

5

of Order 22, oppress the constitutionally protected
right to petition by address.
During proceedings, Petitioner filed a motion for
the Chancellor to recuse or disqualify on the basis ofi
(l) Constitutional, Procedural, and Statutory
Incompetence (2) apparent actual bias, (3) loss of
impartiality,
(4)
violation
of
Petitioner’s
constitutionally guaranteed right of due process, (5)
conspiracy to injure and oppress Petitioner’s rights
and privileges secured by Constitution of the United
States, and the Tennessee Constitution under color
of law, and (6) violation of judicial canons.
Petitioner’s motion to disqualify was denied in a
thirtyeight-page written Order, citing among other
“excuses”; the “Rule of Necessity”.
Since the Chancellor refused to disqualify and
had wrongfully dismissed the case without an
operating motion to dismiss before the court,
Petitioner also filed a Rule 60 Motion to Void
Judgment. In his Rule 60 Motion, Petitioner raised
the federal and constitutional question whether
Tennessee Supreme Court Rule 10B is repugnant to
state and federal constitutions through effecting a
blatant denial of due process provisions. The trial
court declined to address the issue in part because
“only the Tennessee Supreme Court may determine
the facial validity ofits rules” As the record shows,
the Tennessee Supreme Court denied application for
permission to appeal, leaving the question
unanswered. See Appendix E.
REASONS FOR GRANTING THE PETITION
I. CONSTRUCTIVE FRAUD OF UNLAWFUL
ALTERATION OF STATE CONSTITUTION;

6

It is absurd that this Petitioner had the necessity
to bring a cause of action against high-ranking state
officials to correct the PDF version of the Tennessee
Constitution held out to the people in various
government media.
It is even more absurd, that he has to Petition this
Court for mandamus.after being denied the simple
redress of cessation of a constructive fraud that
deceives all Tennesseans to not know they have a
right to petition “by address” by the executive,
legislative, and judicial branches of the Tennessee
government.
It is admitted by the executive, legislative and
judicial branches of government, that the PDF typed
version of the Tennessee Constitution held out to the
people in various government media, contains a
“typographical error”.
That typographical error
deceives all citizens to not know they have a right to
petition government “by address”.
In the Tennessee Blue Book published by the
Tennessee Secretary of State, and in the PDF type­
written versions of the Tennessee Constitution
available for download on the Secretary of State and
Tennessee General Assembly websites, the last
phrase of Article I, Section 23 unlawfully reads; “by
address “of’ remonstrance”. The actual Tennessee
Constitution reads; “by address “or” remonstrance”
meaning citizens have a choice in how they petition
government, either “by address” in oral presentation,
or in remonstrance, which is a formal written protest
against government policy or government officials.
Tennessee
Constitution,
Article
XI,
Miscellaneous Provisions, Section 16;
The declaration of rights hereto prefixed is
declared to be a part of the Constitution of

7

the state, and shall never be violated on any
pretense whatever. And to guard against
transgression of the high powers we have
delegated, we declare that everything in the
bill of rights contained, is excepted out of the
general powers of the government, and shall
forever remain inviolate.
Constructive fraud is a breach of a legal or
equitable duty which is deemed fraudulent because
of its tendency to deceive others, to violate public or
private confidence, or to injure public interests.
Cornwell v. Hodge, C.A. No. 44, 1986 WL 5890, at *3
(Tenn.Ct.App. May 23, 1986) (citing Bank of Blount
County v. Dunn, 10 Tenn.App. 95 (1929)).
Constructive frauds are acts, statements or
omissions which operate as virtual frauds on
individuals. Cornwell, 1986 WL 5890, at *3 (citing
Maxwell v. Land Developers, Inc., 485 S.W.2d 869
(Tenn.Ct.App.1972)). They concern a breach of a
legal or equitable duty, with or without fraudulent
intent, and entail as an attribute of fraud, conduct
which reasonably can be expected to influence the
conduct of others. Cornwell, 1986 WL 5890, at *3
(citing Parks v. Alexander, 608 S.W.2d 881
(Tenn.Ct.App. 1980))
Clearly
the
Tennessee
government
is
perpetrating a constructive fraud upon all its
citizenry and acting in violation of the Tennessee
Constitution, Article XI, §16. Indeed, this Petitioner
too was deceived to not know he had a right to
petition by address, otherwise he would have
asserted his right to petition by address, instead of
demanding oral argument in his remonstrance. See
Appendix F, p. 82a.

8

In the Court’s Memorandum and Order
Dismissing Amended Petition For Writ of Mandamus
(See Appendix A, p. 29a and 32a), the court found
that; “Petitioner has no clear right to demand the
General Assembly to Display or correct its copy ofthe
constitution on its website.”
The court also stated; “Petitioner has cited to no
constitutional or statutory provision naming
Respondents as the “official” repository of the
Tennessee Constitutionand that; “The official
version of Tennessee’s laws is compiled in the
volumes of Tennessee Code Annotated, as certified by
the Tennessee Code Commission
The conclusions of the trial court, that citizens
have no right to demand reform, and that
government officials, legislative houses, and
government agencies do not have a duty to present a
correct version of the Tennessee Constitution sets an
extremely dangerous precedent that a state
government can deceive its citizens about what is the
supreme law of the land with impunity.
The Defendants/Respondents have sworn oaths to
uphold the state constitution. That oath creates the
highest duty. Knowingly holding out a false version
of the constitution is a violation of oath and breach of
the highest duty. Since Defendants/Respondents
have a duty to support and uphold the constitution,
the courts have the power to order such performance
of duty. This Court should order the false version of
Tennessee
Constitution
be
removed
from
government’s various media, or replaced with a
correct version.
It should be disturbing to this Court, and these
Justices, to know a state government has unlawfully
altered its state constitution and perpetuates a

9

constructive fraud that deceives citizens to not know
of their cornerstone right to petition by address.
It should be even more disturbing that all three
branches of the Tennessee government refuse to
make correction of what government claims to be an
unintentional “typographical error”.
On this basis alone, the Justices of this Court
should grant review.
II. THE RIGHT TO PETITION FOR REDRESS OF
GRIEVANCES MUST BE RESTORED &
UPHELD
The right to petition for redress of grievances has
been so oppressed for so long, that citizens no longer
know what this right is, or how to properly exercise
this right. The fact that Petitioner John A. Gentry is
the first person since the year 1850 to properly and
formally exercise this right in the state of Tennessee,
is incontestable proof that this right is oppressed.
The right to petition for redress of grievance, by
address or remonstrance, is an ancient right and the
cornerstone of our constitutional system4. The right
of petition is the “relief valve” for all dissatisfaction
with government. “ Common and frequent petition,
without the threat of force, took the place of
prolonged discontent and abrupt presentation of a

4 Norman B. Smith, “Shall Make No Law Abridging . .
An
Analysis of the Neglected, But Nearly Absolute, Right of
Petition, 54 U. CIN. L. REV. 1153 (1986). Since the Tennessee
Court of Appeals cited this law review article in opinion (See
Appendix C, p. 56a), it is reasonable this court consider it as a
valid supporting authority.

10

complex cahier of grievance at the point of the
sword.”6
Petitions, Memorials and Remonstrances,
properly heard and decided; (l) is the means by
which peoples’ problems that need government
response are brought to the attention of government,
(2) is the principal source of the government’s
information
on
popular
attitudes
toward
government, (3) is the remedy for incompetence,
corruption, waste, and other misconduct, (4) is the
measure of public approval of an incumbent
government, and (5) is the “relief valve” to avoid or
prevent popular uprisings.6
On January 6, 2021 the entire nation witnessed
the result of the oppression of the right to petition
with citizens breaching the Capitol Building, as well
in witnessing violent protests across the “former
republic” occurring throughout 2020. Those
unlawful protests are the direct result of the
oppression of the right of petition. With continued
oppression of the right of petition, the underlying
causes of those unlawful protests, will only
exacerbate, and the eventual outcome will be far
worse for both the oppressors and the oppressed.
For this court to deny review of this case is to
either subject the people to continued rampant
corruption, or force them to eventually take up arms
in exercise of their unalienable and indefeasible right
to reform, alter, or abolish government in such
manner as they may think proper7.
5 RE; footnote 4, id at 1155
6 RE; footnote 4, id at 1178
7 Tennessee Constitution, Article I, § l; Section 1. That all power
is inherent in the people, and all free governments are founded
on their authority, and instituted for their peace, safety, and

11

For this Court to deny review of this case is to
evidence, this Court’s participation in the oppression
of a right that is fundamental to our proper form of
government, and is the cornerstone of our
constitutional system and republic. ■ In the case,
Pacific States Telephone & Telegraph Co. v. Oregon,
223 US 118, 32 - Sup. Ct., 1912, the supreme court
stated... to afford no method of testing the rightful
character of the state government, would be
to render people of a particular State
hopeless
in
case
of
a
wrongful
government, (at 146)
Hereto, on this alone, the Justices of this Court
should grant review.
III. RIGHT OF DUE PROCESS OPPRESSED
Petitioner has been deprived his right of due
process throughout the entire legislative and court
proceedings giving rise to this petition.
Petitioner was not heard in the legislative houses;
neither by his remonstrance being read, nor by
upholding his right to petition by address.
Petitioner was subjected to court proceedings
presided over by judges with interest to not be
reformed, all of whom refused to disqualify. Indeed,
according to the Tennessee Court of Appeals Order
denying disqualification, there is not a qualified
happiness! for the advancement of those ends they have at all
times, an unalienable and indefeasible right to alter, reform, or
abolish the government in such manner as they may think
proper.

12

judge in the entire state of Tennessee to hear
Petitioner as follows;
In
the
instant
case,
Petitioner’s
remonstrance does not merely call for the
impeachment of all judges. Rather,
Petitioner’s remonstrance alleges that all
judges and attorneys must be “reformed.”
Given the allegations in Petitioner’s
remonstrance, there is no qualified pool from
which either the Chief Justice or our
Governor could appoint special judges to
hear this appeal. See Appendix B, p. 48a
Petitioner sought in writ of mandamus upon
defendant/respondents to (l) properly announce
Petitioner’s remonstrance in the senate and read his
remonstrance at the table or provide Petitioner
opportunity to present, (2) hear and decide
Petitioner’s remonstrance in the Senate, (3) properly
announce Petitioner’s remonstrance in the House
and read his remonstrance at the table or provide
Petitioner opportunity to present, (4) hear and decide
Petitioner’s remonstrance in the House.
The facts of this case are not disputed. Petitioner
properly filed a Petition of Remonstrance, received
and file stamped by the Clerks of both legislative
houses. Petitioner’s remonstrance was announced on
the floor of the Tennessee House of Representatives,
and improperly announced for the floor of the
Tennessee Senate as “Notices and Unfinished
Business. Neither the Tennessee House or Senate,
read Petitioner’s remonstrance at the table as
required of them House Rule of Order 15, and Senate
Rule 22.

13

Although deceived by a false type-written version
of the Tennessee Constitution held out to the people
by government, Petitioner asserted his right to
petition “by address” with his stating “ORAL
ARGUMENT DEMANDED” on the cover of his
Petition of Remonstrance. See Appendix F, p. 82a
In Grosjean v. American Press Co., 297 US 233,
56 S. Ct. 444, 80 L. Ed. 660 - Supreme Court, 1936;
“ We concluded that certain fundamental rights,
safeguarded by the first eight amendments against
federal action, were also safeguarded against state
action by the due process of law clause of the
Fourteenth Amendment' (at 244).
In this matter, Petitioner’s right of due process
has been grossly violated. Fundamental to due
process is the right to be heard. In demanding oral
argument (See Appendix F, pgs. 88a
90a),
Petitioner asserted his right of due process and
stated in his remonstrance to the Tennessee General
Assembly as follows;
In the U.S. Supreme Court case, Mathews
v. Eldridge, 424 US 319 - Supreme Court 1976,
our Supreme Court stated;
The "right to be heard before being
condemned to suffer grievous loss of
any kind, even though it may not
involve the stigma and hardships of
a criminal conviction, is a principle
basic to our society." Joint AntiFascist Comm. v. McGrath, 341 U. S.
123, 168 (1951) (Frankfurter, J.,
concurring).

14

In Armstrong v. Manzo, 380 US 545, 552 Supreme Court 1965, the earlier Supreme
Court stated;
A fundamental requirement of due
process is "the opportunity to be
heard." Grannis v. Ordean, 234 U. S.
385, 394. It is an opportunity which
must be granted at a meaningful
time and in a meaningful manner.
Fundamental elements of due process
include a right to be heard and present oral
argument. In the case, Goldberg v. Kelly; 397
US 254 * Supreme Court 1970, our Supreme
Court of the United States stated the
following;
In the present context these
principles require ... an effective
opportunity to defend by confronting
any adverse witnesses and by
presenting his own arguments and
evidence orally.
Therefore, and on premises considered,
petitioner hereby asserts his constitutional
right of due process and asserts right to be
heard orally before the General Assembly to
whom this Petition of Remonstrance is
presented. Petitioner respectfully demands
that Senate and House Rules be adhered to,
including Mason’s Manual of Legislative
Procedure. § 148, U 4, and § 518, K 1.
Therefore, not only is it a duty of the legislative
houses to hear and decide remonstrances protesting

15

corruption and unlawful alteration of a state’s form
of government, and not only do the legislative houses
have a duty to read petitions “at the table” as
required by their own rules, but those petitioning
have a right to be heard as a fundamental aspect of
due process protected in Amendment XIV of the
federal constitution.
The following citations from the Tennessee
General Assembly, House of Representatives, 1831
House Journal, evidence the House was formerly
republican in character, and performed their duty to
hear and decide petitions as follows?
Mr. McGaughey, from the committee on
propositions and grievance, reported,
A bill to authorise Austin Gresham to sell
a slave.
Which bill was read a first time and passed.
Ordered, That the clerk acquaint the
Senate therewith.
Mr. McGaughey, from the same committee,
made a report upon the petitions of James
Baker, Fanny Stanly and Roger Terrell. And
the resolution therein contained was
concurred in by the House as follows, to wit
Resolved, That the prayer of the petitioners
ought not to be granted.
Tennessee House of Representatives, House
Journal 1831, p 276
Mr. Hurst presented a petition of Allen
Jack praying for a divorce.

16

Ordered, that said petition be referred to
the committee on divorces.
Mr. Claiborne presented a petition of
Baptist McCombs and others.
Ordered that said petition be referred to
the committee on claims.
Mr. Hardin presented a petition of Joseph
Nolen, praying the passage of an act
authorizing him to hawke and peddle without
a license.
Ordered That said petition be referred to
the committee of propositions and grievances.
Mr. McGaughey, from the committee of
propositions and grievances made a report
upon the petition of sundry citizens of
Franklin county, praying for the passage of an
act authorizing them to raise a certain sum of
money by lottery for the purpose of erecting a
female academy in said county.
And the resolution contained therein, was
concurred in by the House, as follows, to wit;
Resolved that the prayer of the petitioner
ought not to be granted.
Tennessee House of Representatives, House
Journal 1831, p 282
Clearly in 1831, Representatives of the
Tennessee House of Representatives, received and
read petitions at the table, and those petitions were
referred to proper committee, the committees then
deliberated the petitions, made report back to the full
body of the House, and the full House voted on those
petitions according to the recommendations of the

17

committees. That 1831 House Journal is proof
positive of a House and government, republican in
character. That 1831 House Journal is proof positive
of House members who performed their duty, and
received and read petitions at the table, and
deliberated and decided those petitions. Given the
state of rampant corruption8 that is occurring in
Tennessee courts across the state, it is essential that
the House and Senate once again hear and decide
petitions.
The Defendant/Respondents clearly oppressed
and violated Petitioner’s right of due process by
refusing to read his remonstrance “at the table” and
by refusing to allow Petitioner to present his
remonstrance “by address”.
The Chancery Court, Court of Appeals, and
Tennessee Supreme Court further oppressed
Petitioner’s Amend. XIV right of due process by
wrongfully denying to issue a Writ of Mandamus
upon the Defendants to hear and decide a properly
presented remonstrance.
Pursuant to the Constitution of the United States,
Article VI, the Justices of this Court are bound to
support the federal constitution, especially in a case
as profoundly important as this case where a
petitioner is complaining of a wrongful government
acting in plain violation of state and federal
constitutions.

8 Recently, in a Joint Government Operations Committee
Hearing, as well as Senate Judiciary Committee hearings of the
Tennessee General Assembly, the Senate Video Journal
evidences nine (9) senators (16) representatives were invited
and did not dispute admission by Tennessee Senator Roberts of
a problem of widespread judicial corruption across the state.

18

Therefore, this Court should grant review in this
case, adhering to oath to support the Constitution of
the United States, by enforcing Petitioner’s right of
due process, and right to petition by address.
IV. GUARANTEE DEMAND
The state of Tennessee has so forsaken the
principles upon which this republic was founded that
the government of the state of Tennessee is no longer
republican in character or form.
The
state of Tennessee oppresses the
fundamental right to petition for redress of grievance
by address or remonstrance. In Cruikshank, the
Supreme Court stated- “the very idea of a
government, republican in form, implies a right ofits
citizens to petition for redress ofgrievances.” United
States v. Cruikshank, 92 US 542, 23 - Sup. Ct, 1876
(at 553).
The government of the state of Tennessee has
unlawfully altered the Tennessee Constitution,
oppressing the people of the right to petition by
address through a constructive fraud upon the entire
Citizenry.
The state of Tennessee has unlawfully altered its
form of government by statutorily placing judges in
expressly prohibited second offices of trust, with
those prohibited offices used to propagate and protect
rampant state official corruption, and in violation of
expressly prohibited separation of powers set forth
Tennessee Constitution, Article II, Section 2.
The Tennessee judiciary has usurped Tennessee
legislative power to impeach or remove judges from
office pursuant to Tennessee Constitution, Article V,
§ 1 and Article IV, §6.

19

The Constitution of the United States, Article IV,
§ 4 states that; “The United States shall guarantee to '
every state in this union a republican9 form of
government”, exparte Petitioner, state of Tennessee,
and Petitioner John A. Gentry hereby and herein,
make Guarantee Demand upon these Justices of the
Supreme Court of the United States pursuant to Art
IV, § 4 of the Constitution of the United States.
Since a republican form of government signifies
the state independently of its government and form
of government, this Guarantee Demand should hold
great weight with the Justices of this Court to make
good on the Article IV, § 4 guarantee clause.
V. OPPRESSIVE LEGISLATIVE RULES OF
ORDER; Actus repugnans non potest in esse
produci
House Rule of Order, Rule 15, and Senate Rule of
Order 22, state that petitions shall be received and
read at the table. House Rules of Order, Rule 79 and
Senate Rules of Order, Rule 71, states that Mason’s
Manual of Legislative Procedure is to govern any
question that may arise, which is not provided for in
body Rules of Order. Mason’s Manual of Legislative
Procedure § 148, f 4 affirms; “A petition is presented
to the body by the petitioners themselves
9 Republic. That form of government in which the
administration of affairs is open to all the citizens. In another
sense, it signifies the state independently of its form of
government. Black’s Law Dictionary, Fifth Edition (1979)

20

It is incontrovertible fact that citizens have a
constitutionally protected right to orally address the
powers of the government pursuant to Article I, § 23
of the Tennessee Constitution,
It is an
incontrovertible fact that the public is deceived by
the government through a false typewritten version
of the Tennessee Constitution that literally strips all
Tennesseans of the right to petition by address.
The unconstitutional legislative Rules of Order,
themselves cause recognized injury to the interests of
the United States. See generally, Bowen v. Kendrick,
483 U.S. 1304, (1987), New Motor Vheicle Bd. v.
Orrin W. Fox Co. 434 U.S. 1345, (1977), and see also
Walters v. Natl Ass’n of Radiation Survivors, 468
U.S. 1323, 1324(1984).
House Rule of Order 15, and Senate Rule of Order
22 oppress the right to be heard that is essential to
due process protected in Amendment XIV of the
Constitution of the United States, since these
legislative rules of order do not provide for, and
oppress the right to petition by address.
VI. CONSTITUTIONALLY
REPUGNANT
TENNESSEE SUPREME COURT RULE 10B;
Actus repugnans non potest in esse produci
In 1916, the United States Supreme Court
affirmed in opinion, that a law “must be construed, if
fairly possible, so as to avoid not only the conclusion
that it is unconstitutional, but also grave doubts
upon that score.” United States v. Jin FueyMoy, 241
U.S. 394, 401, Sup. Ct. (1916}, see also Clark v.
Martinez, 543 U.S. 371, 380-81. Sup. Ct. (2005).
Here, Tennessee Supreme Court Rule 10(B) is
repugnant to the constitution.

21

Sup. Ct. Rule 10B 1.03 is the worst of Sup. Ct.
Rule 10B, stating; “Upon the filing of a motion
pursuant to section 1.01, the judge shall act promptly
by written order and either grant or deny the motion.
If the motion is denied, the judge shall state in
writing the grounds upon which he or she denies the
motion.” If a motion to disqualify or recuse is filed
alleging bias, this section of the rule deprives the
person of the inviolate right to trial by jury.
There can be no doubt, when a person is subjected
to a biased judge, a federal crime is being committed
against them. Citizens have a right of due process.
One cannot have due process without a fair and
impartial court. Very obviously, if a judge is biased,
that judge is conspiring with someone.
Pursuant to 18 U.S. Code § 241; If two or more
persons conspire to injure, oppress, threaten, or
intimidate any person... in the free exercise or
enjoyment of any right or privilege secured to him by
the Constitution or laws of the United States, ...
They shall be fined under this title or imprisoned not
more than ten years, or both.
In the case United States v. Price, 383 US 787, 86
S. Ct. 1152, 16 L. Ed. 2d 267 - Sup. Ct, 1966, Justice
Fortas delivered the opinion of the court that § 241
was enacted because of the continued denial of rights
(at 802), as part of the Enforcement Act of 1870. The
opinion statedIt is clear, therefore, that § 241, from
original enactment through subsequent
codifications, was intended to deal, as Mr.
Justice Holmes put it, with conspiracies to
interfere with "Federal rights and with all
Federal rights." We find no basis whatsoever
for a judgment of Solomon which would give to

22

the statute less than its words command, (at
803)
In this context, it is hardly conceivable that
Congress intended § 241 to apply only to a
narrow and relatively unimportant category of
rights. We cannot doubt that the purpose and
effect of § 241 was to reach assaults upon
rights under the entire Constitution, including
t.hfi Thirteenth, Fourteenth and Fifteenth
Amendments, and not merely under part of it.
(at 805)
We refer to the speech of Senator Pool of
North Carolina ... He urged that the section
was needed in order to punish invasions of the
newly adopted Fourteenth and Fifteenth
Amendments to the Constitution. He
acknowledged that the States as such were
beyond the reach of the punitive process, and
that the legislation must therefore operate
upon individuals. He made it clear that "It
matters not whether those individuals be
officers or whether they are acting upon their
own responsibility." We find no evidence
whatever that Senator Pool intended that §
241 should not cover violations of Fourteenth
Amendment rights, or that it should not
include state action or actions by state
officials, (at 805/806)
Today, a decision interpreting a federal law
in accordance with its historical design, to
punish denials by state action of constitutional
rights of the person can hardly be regarded as
adversely affecting "the wise adjustment

23

between State responsibility and national
control..." (at 807)
Therefore, when a person seeks recusal of a judge
or chancellor, due to alleged bias, that person is
alleging a federal crime being committed against
them. Therefore, pursuant to Sup. Ct. Rule 10B 1.03, .
a judge so accused is acting as a jury of one over an
alleged crime, where the judge is the alleged
perpetrator of a crime, deciding his/her own guilt or
innocence, and without the benefit of trial by jury for
the accuser. Clearly this rule is a mockery of justice
and facilitates crimes against the people.
VII. THIS COURT IS CALLED TO DUTY
Respectfully stated, for this Court to deny review
in case, would evidence treason10 to the constitution
by the Justices, and traitorous violations of oaths.
This case presents this court with the opportunity to
restore
the
intended republic where
the
administration of affairs is open to all citizens
through right of petition by address or remonstrance,
and where citizens are ruled by law.
This Court is called to duty by those who
sacrificed their lives to establish, preserve and
defend this republic and constitution. This Court is
called to duty pursuant to United States
10 The Supreme Court of the United States made the following
statement in the case, ex parte Young; 209 US 123 Sup. Ct.
(1908); “We have no more right to decline the exercise of
jurisdiction which is given, than to usurp that which is not
given. The one or the other would be treason to the Constitution.
Questions may occur which we would gladly avoid, but we
cannot avoid them. All we can do is to exercise our best
judgment, and conscientiously perform our duty." (at 143).

24

Constitution, Article IV, Section 4. This Court is
called to duty pursuant to the Constitution of the
United States, Article VI.
The constitution of the United States binds all
judges to uphold constitutional provisions, and
evidences certain rights retained by the people.
ex parte Petitioner state of Tennessee and
Petitioner John A. Gentry demand the provisions of
the constitution be upheld, and asserts their right of
due process which includes a right to a fair and
impartial court, and to be heard, and for the equal
protection of the supreme law to petition for redress
of grievance by address or remonstrance.

CONCLUSION
The Petition for writ of certiorari should be
granted.
DATED: May 13, 2021

Respecthilly submitted,

y(fohn A Gentry, sui juris
208 Navajo Court,
Goodiettsville, TN 37072
(615) 351-2649
john.a.gentry@comcast.net

25

